                                       UNITED STATES DEPARTMENT OF EDUCATION 

                                            OFFICE OF INSPECTOR GENERAL 

                                                                 REGION V 

                                                         III NORTH CANAL. SUITE 940 

                                                           CHICAGO. ILLINOIS 60606 


                                                               FAX: (312) 353·0244
     Audit                                                                                                                               Investigation
(312) 886-6503                                                                                                                          (312) 353·7891

                                                                                                             CONTROL NUMBER
                                                                                                              ED-OIG/A05-D0020

         Mr. Rome Alexander, Executive Director
         The Alexander Institute
         235 East 6th Street                                                                              DEC 11 2003
         St. Paul, MN 55101

         Dear Mr. Alexander:

         This Final Audit Report presents the results of our audit of the administration of the Federal
         Pell Grant (Pell) program by The Alexander Institute (Institute) during the period September 28,
         2000, through June 30, 2003. Our objective was to determine whether the Institute administered
         this program in accordance with Title IV of the Higher Education Act of 1965, as amended
         (REA), and selected program regulations.

         Our audit identified serious deficiencies in the Institute's administration of the Pell program. The
         Institute did not have (1) an adequate system of records to account for Pell funds or document
         students' eligibility to receive Pell funds, and (2) written polices and procedures for
         administering the program. Based on these deficiencies, we have concluded that the Institute
         cannot adequately administer the Pell program. These deficiencies were previously identified
         during various audits and reviews by the Institute's independent public accountant, accrediting
         agency, State licensing agency, and Federal Student Aid (FSA). The Institute asserted in its
         corrective action plans to the compliance audits that these deficiencies were corrected. However,
         our audit disclosed that the Institute did not correct the deficiencies. (See the Attachment for
         deficiencies identified in prior audits and reviews and the Institute's assertions of corrective
         action.)

         We are recommending that the Chief Operating Officer for FSA instruct the Institute to conduct
         a complete file review and document each disbursement made during the audit period. To the
         extent the Institute cannot document a disbursement, it should refund the amount disbursed, up to
         $1,718,869, which represents all Pell funds it received from September 28,2000, through June
         30,2003.

         We provided a draft of the report to the Institute. The Institute did not submit any comments.
         Subsequent to the issuance of our draft report, the Administrative Actions and Appeals Division
         of FSA sent a notice imposing an emergency action and initiating a termination action against
         the Institute, based on its loss of accreditation. As a result of the initiation of a termination
         action against the Institute, we eliminated our recommendation that the Chief Operating Officer
         deny the Institute's application to renew its provisional certification and our recommendation that
         the Chief Operating Officer take appropriate 34 C.F.R. Subpart G action.




                  Our miss/on is to promote the efficiency, effectiveness, and integrity of the Department's programs and operations.
Final Audit Report	                                                           ED-OIG/A05-D0020


                                        AUDIT RESULTS

Finding No. 1 	        Serious Deficiencies Demonstrate that the Institute Cannot
                       Administer the Pell Program

The Institute was not in compliance with the standards of administrative capability contained in
34 C.F.R. § 668.16, which state that to “begin and to continue to participate in any Title IV, HEA
program, an institution shall demonstrate to the Secretary that it is capable of adequately
administering that program.” The Institute did not have an adequate system of records or written
policies and procedures for administering the Pell program. In its July 17, 2003, written
representations, the Institute asserted that it cannot state that material transactions were recorded
in the accounting system or that computer-processed data presents fairly the administration of the
Pell program. Also, the Institute awarded and disbursed Pell funds based on credit hours that
were not calculated in accordance with the regulations. From September 28, 2000, through June
30, 2003, the Institute received Pell funds totaling $1,718,869. Because the Institute could not
account for Pell funds or document its students’ eligibility to receive Pell funds, we are
recommending that it refund up to $1,718,869.

Inadequate System of Records

Contrary to assertions it made to resolve prior audits, the Institute did not have a system of
records that adequately accounted for Pell funds or documented students' eligibility for the Pell
funds received. The records either were missing, incomplete, or contained conflicting data. The
regulations at 34 C.F.R §668.16(d) specify that an institution is administratively capable if,
among other requirements, it “[e]stablishes and maintains records required under this part and
the individual Title IV, HEA program regulations . . . . .” The records requirements for
participating institutions are contained in 34 C.F.R. § 668.24. Among other requirements, an
institution shall:

           • 	 “document – Its disbursement and delivery of Title IV, HEA program funds.” (34
               C.F.R. § 668.24(a)(6))
           • 	 “establish and maintain on a current basis – Financial records that reflect each
               HEA, Title IV transaction . . .” (34 C.F.R. § 668.24(b)(2)(i))
           • 	 “maintain... Documentation of each student’s or parent borrower’s eligibility for
               Title IV, HEA program funds . . . .” (34 C.F.R. § 668.24(c)(1)(iii))

Records did not adequately document Pell disbursements. For the 2000-2001 and 2001-2002
award years, the Institute could not adequately document Pell disbursements to individual
students. According to the Institute, the original student account cards were either missing or
incomplete. The Institute reconstructed the student account cards for the two years. However, it
could not determine the specific Pell disbursement dates, so it recorded the disbursements by
quarter. Our audit identified inaccuracies in the reconstructed account cards. Therefore, we
could not rely on these records. The fiscal year 2000 and 2001 compliance audits reported a
similar finding.




                                                 2

Final Audit Report                                                                         ED-OIG/A05-D0020

According to the U.S. Department of Education’s (Department) records, the Institute drew down
$63,673 more for the 2000-2001 and 2001-2002 award years than Institute records indicated it
had disbursed to students. In 2003, the FSA Office of the Chief Financial Officer placed a hold
on the Institute’s Pell funds. According to an Institute official, FSA put the hold on the funds
because the Institute has a liability of about $30,000 based on its 2001 compliance audit in
addition to being unable to support the full amount of Pell funds drawn down.

Student records did not document eligibility for Pell funds received. The Institute did not
maintain records for the 2000-2001, 2001-2002, and 2002-2003 award years that adequately
documented student eligibility, student Pell award calculations and disbursements, student refund
calculations, and return of funds. We randomly selected 451 students for our file review, 15 from
each of the three award years. We identified one or more document deficiencies for each
student. The deficiencies, which primarily related to statements of account and academic
transcripts, consisted of missing documents or documents that contained partial or conflicting
data. We found that data in the student statements of account did not always agree with data in
the academic transcripts, and data in those records did not always agree with data in the National
Student Loan Data System. Based on the 100 percent error rate, we concluded that the Institute
had a systemic problem, and we could not rely on the student records. The Minnesota Higher
Education Services Office cited this deficiency in its fiscal year 2002 audit of State grant
payments for individual students.

Lack of Written Policies and Procedures

The regulations at 34 C.F.R. § 668.16(b)(4) provide that an institution is considered to have
administrative capability if, among other requirements, the institution “[h]as written procedures
for or written information indicating the responsibilities of the various offices with respect to the
approval, disbursement, and delivery of Title IV, HEA program assistance . . . .” The Institute
did not have written polices and procedures that described responsibilities for the approval,
disbursement, and delivery of Pell funds.

The Institute supposedly implemented policies and procedures in response to prior audit
findings. The Institute provided us with a binder that it claimed contained its policies and
procedures for administering the Pell program. Our review disclosed that the binder actually
contained the policies and procedures for a different institution. The manual was written for an
institution that was on a semester-based academic year and participated in the loan programs.
The Institute offered its programs on a quarter-based academic year and participated only in the
Pell program. The manual refers to offices and positions that the Institute did not maintain, and
included forms, with the other institution's letterhead, that the Institute did not use. The Institute
made no modifications to the policies and procedures to fit its academic year or program
participation.



1
  We reviewed 43 student files; 15 of 124 Pell recipients for the 2000-2001 award year, 13 of 252 Pell recipients for
the 2001-2002 award year, and 15 of 278 Pell recipients for the 2002-2003 award year. The Institute could not
locate files for 2 students selected from the 2001-2002 award year. We consider the missing files as a missing
document deficiency.


                                                          3
Final Audit Report	                                                          ED-OIG/A05-D0020


Not in Compliance with the Clock/Credit Hour Conversion Requirements

The Institute calculated Pell awards based on credit hours approved by its accrediting agency and
State licensing agency. Those credit hours were not calculated in accordance with the
Department's regulations at 34 C.F.R. § 668.8(l) and were overstated for Title IV purposes.
According to the Institute's catalog, the Medical Assistant, Medical Administrative Assistant,
and Medical Transcription programs were 59, 40, and 43 credit hours consisting of 996, 600, and
660 clock hours of instruction, respectively. Based on the credit hour formula in 34 C.F.R.
§ 668.8(l), a quarter hour must include at least 20 hours of instruction unless, per 34 C.F.R.
§ 668.8(c)(1), the program is at least two years in length and provides an associate, bachelor's, or
professional degree. After applying the formula, the Institute's programs were only 49 (rounded
downward), 30, and 33 credits, respectively. As a result, the Institute calculated Pell awards
based on overstated credit hours and overawarded Pell to students.

Recommendations

We recommend that the Chief Operating Officer for FSA

1.1 	   instruct the Institute to perform a complete file review and document each disbursement
        to each student for the 2000-2001, 2001-2002, and 2002-2003 award years. The Institute
        must document an Institutional Student Information Record for each student, each
        student's enrollment status for each payment period, and the student's attendance at each
        course making up the student's enrollment status during that payment period. Failure to
        properly document a disbursement would result in a liability, which could total
        $1,718,869, that must be repaid.

                                        BACKGROUND

The Institute is a proprietary school with campuses in Minneapolis and St. Paul, Minnesota.
During the audit period, the Institute offered Medical Assistant, Medical Administrative
Assistant, and Medical Transcription diploma programs. The Department granted it provisional
certification to participate in the Title IV, HEA programs on September 28, 2000. The
provisional certification expired September 30, 2003. Although the Institute was eligible to
participate in all Title IV, HEA programs, it chose to participate only in the Pell program. The
Accrediting Bureau of Health Education Schools accredited the Institute, and the Minnesota
Higher Education Services Office licensed it. During the period September 28, 2000, through
June 30, 2003, the Institute received $1,718,869 of Pell funds.

                       OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of our audit was to determine whether the Institute administered the Pell program
in accordance with the HEA and selected program regulations during the period September 28,
2000, through June 30, 2003. Specifically, we attempted to evaluate
(1) institutional and program eligibility, (2) cash management and financial responsibility, and
(3) selected administrative and compliance requirements. The selected administrative and
compliance requirements included student eligibility, Pell award calculations and disbursements,
and return of funds and overpayments.


                                                 4
Final Audit Report	                                                                        ED-OIG/A05-D0020



To accomplish our audit objective, we

1.       r	 eviewed the Institute's written polices and procedures, course catalog, accounting
         records, student financial assistance and academic files, student account cards, academic
         transcripts, attendance records, and bank records;

2. 	     reviewed the financial statement and compliance audit reports for the six-month period
         ended December 31, 2000, and year ended December 31, 2001, and the corresponding
         compliance and 90/10 computation work papers;

3. 	     reviewed FSA, State, and accrediting agency documents;

4. 	     reviewed Department data from the Postsecondary Education Participants System, Grants
         Administration and Payments System, and National Student Loan Data System;

5. 	     reviewed 43 randomly selected student files (15 of 124 Pell recipients for the 2000-2001
         award year, 132 of 252 Pell recipients for the 2001-2002 award year, and 15 of 278 Pell
         recipients for the 2002-2003 award year); and

6. 	     interviewed Institute, FSA, State licensing agency, and accrediting agency officials.

We conducted our fieldwork at the Institute's administrative office in St. Paul, Minnesota, from
April 9, 2003, through July 15, 2003, and made a site visit to the Minneapolis campus on April
23, 2003. We discussed the results of our audit with Institute officials on July 17, 2003.

We asked the Institute to provide written representations concerning the competence of the
evidence we obtained (paragraph 6.55 of the government audit standards, 1994 revision;
paragraph 7.54 of the 2003 revision). The Institute could not provide these representations;
therefore, a scope limitation exists. Although the July 17, 2003, representations included a
confirmation that no current employee deliberately or fraudulently adversely influenced
administration of the Pell program, the Institute did not make that same confirmation for former
employees involved in program administration during the audit period. The representations
stated that, for various reasons, the Institute provided us incorrect information. In addition, the
representations asserted that the Institute cannot state that material transactions have been
properly recorded in the accounting records, and it cannot state that computer-processed data
provided to us fairly presents the Pell program. Subject to the scope limitation described above,
our audit was performed in accordance with generally accepted government auditing standards
appropriate to the scope of our audit.

                          STATEMENT ON MANAGEMENT CONTROLS

As part of our audit, we did not assess the adequacy of the Institute's management control
structure applicable to its Pell program to determine the nature, extent, and timing of our testing.

2
  We selected 15 students for file review. However, the Institute could not locate files for 2 students. We consider
the missing files as a missing document deficiency.


                                                          5
Final Audit Report                                                           ED-OIG/A05-D0020


Instead, we relied on substantive testing of fmancial aid, academic, and accounting records. Our
review of student files disclosed significant noncompliance with federal regulations that led us to
believe material weaknesses existed in the Institute's controls over the Pell program. These
weaknesses and their effects are fully discussed in the AUDIT RESULTS s~ction of this report.

                                ADMINISTRATIVE MATTERS

Statements that managerial practices need improvements, as well as other conclusions and
recommendations in this report, represent the opinions of the Office of Inspector General.
Determinations of corrective action to be taken will be made by the appropriate Department
officials.

If you have additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the folloWing Department official, who
will consider them before taking fmal Departmental action on this audit.


                       Theresa S. Shaw, Chief Operating Officer
                       Federal Student Aid
                       U.S. Department of Education '
                       Union Center Plaza, 830 First Street, NE
                       Room 112Gl, Mail Stop 5132
                       Washington, DC 20202


It is the Department's policy to expedite the resolution of audits by initiating timely action on the
findings and recommendations contained therein. Therefore, receipt of your comments within 30
days would be greatly appreciated.

In accordance with the Freedom oflnformation Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                                      Sincerely,




                                                      Regional Inspector General
                                                      for Audit




                                                  6
Final Audit Report                   ED-OIG/A05-D0020                             Attachment
                                                                                       Page 1


                    PRIOR AUDITS AND REVIEWS

     DEFICIENCIES REPORTED AND CORRECTIVE ACTION INDICATED 


Since beginning its participation in the Title IV programs, the Institute has had a history
of noncompliance and financial problems.

•	     The Institute's independent public accountant issued an adverse opinion on its
       fiscal year 2000 and 2001 compliance audits. Both audits disclosed material
       noncompliance, citing a lack of administrative capability and the lack of an audit
       trail for Pell program funds. The Institute agreed with the findings in both
       reports. As of August 6, 2003, the Department had not received the Institute’s
       compliance audit for 2002, which was due June 30, 2003.

       The Institute stated in its corrective action plan to the 2000 and 2001 compliance
       audits that these deficiencies had been corrected. In response to the
       administrative capability finding, the Institute stated all policies, procedures, and
       internal controls had been implemented. In response to the audit trail finding, the
       Institute stated it took action so that adequate audit trails were recorded for
       disbursement of Pell funds by keeping records via both batch and individual
       student accounting records for receipt and disbursement of Pell funds. As
       indicated in the AUDIT RESULTS section of this report, the stated corrective
       action has not occurred.

•	     The Institute’s financial statement audits for fiscal year 2000 and 2001 included a
       going concern note.

•	     Based on the financial statements, FSA calculated a composite score of negative
       1.0 for fiscal year 2000, and negative 0.13 for fiscal year 2001. As a result, FSA
       requested a Letter of Credit equal to 20 percent of the Institute’s Title IV funding
       or $140,000.

•	     The Minnesota Higher Education Services Office (MHESO) audited the Institute
       twice. The first audit had four findings. The second audit had eight findings.
       MHESO expanded the second audit due to the large number of exceptions relating
       to academic transcripts and statements of accounts. This audit included findings
       that constitute a lack of capability to administer the program.

•	     The Accrediting Bureau of Health Education Schools (ABHES) performed one
       review of the Institute in 2003. ABHES notified the Institute on July 22, 2003,
       that its accreditation was being withdrawn, subject to the right to appeal. Some of
       the ABHES findings are:

       1.      The Institute does not demonstrate that students complete their programs.

       2.      Management does not demonstrate ethical and responsible practices.
Final Audit Report                  ED-OIG/A05-D0020                             Attachment
                                                                                      Page 2


       3. 	    The Institute does not evidence compliance with all local, State, and
               federal laws.

       4. 	    The Institute does not demonstrate that it takes responsibility for its
               recruiting representatives, and does not ensure they act in an ethical and
               responsible manner.

       5. 	    The Institute does not make refunds within 30 days of the determined
               withdrawal date.

       6. 	    ABHES has not approved all the Institute's programs.

       7. 	    The St. Paul campus faculty does not consist of qualified individuals.

       8. 	    The physical plant and equipment are not appropriate, and do not comply
               with all local, State, and federal safety requirements.

•	     FSA conducted two program reviews. The first program review included a
       finding on lack of administrative capability. The second program review, which
       did not cite a lack of administrative capability, did include five findings.
